           UNITED STATES
CONSUMER PRODUCT SAFETY COMMISSION




    OFFICE OF INSPECTOR GENERAL

 AUDIT OF THE TRAVEL CARD PROGRAM

        Issued: September 27, 2013
                                              TABLE OF CONTENTS


EXECUTIVE SUMMARY ................................................................................................ 3 
INTRODUCTION .............................................................................................................. 6 
   BACKGROUND ............................................................................................................ 6 
   OBJECTIVES ................................................................................................................. 6 
   SCOPE ............................................................................................................................ 7 
   METHODOLOGY ......................................................................................................... 7 
RESULTS AND FINDINGS .............................................................................................. 9 
   1.  IBAs Were Not Always Used Appropriately ............................................................ 9 
   2.  Improvements Needed for Compliance with the Requirements of OMB Circular A-
   123, Appendix B ............................................................................................................ 10 
   3.  Improvements Needed Over Travel Expenditures Oversight................................. 15 
APPENDIX A: MANAGEMENT RESPONSE ............................................................... 20 




                                                                                                                                     2
                              EXECUTIVE SUMMARY


BACKGROUND

The U.S. Consumer Product Safety Commission (CPSC) Office of Inspector General
(OIG) conducted an audit of the Travel Card Program. The OIG conducted this audit in
accordance with Generally Accepted Government Auditing Standards (GAGAS), to
evaluate the effectiveness of the CPSC’s internal controls over the appropriateness of
travel expenditures made using the U.S. government travel charge card. We reviewed
applicable documentation to gain an understanding of the operations of the Travel Card
Program and the relevant internal controls. In addition, we evaluated the CPSC’s
compliance with applicable laws, regulations, policies, and procedures. The CPSC began
taking corrective action on many of the findings generated by this audit even before we
completed the audit. Unfortunately, they did not fully implement these corrective actions
before we completed the fieldwork on this audit. This office looks forward to assessing
the effectiveness of these corrective actions in the future.

RESULTS OF EVALUATION AND FINDINGS

This report covers the CPSC’s Travel Card Program from October 2010 to December
2011. Overall, we found that the CPSC does have a functioning Travel Card Program.
However, management officials have not successfully implemented internal controls
mandated by the Federal Travel Regulations (FTR) and the Office of Management and
Budget (OMB) to mitigate risks associated with the Travel Card Program. Our findings
regarding these issues include the following:

   1. Individually Billed Accounts (IBA) Were Not Always Used Appropriately:

       We found that CPSC employees used their government-issued travel cards in
       ways that were not appropriate, including purchasing meals while not on official
       travel; using the travel card to pay a government license renewal fee; and
       purchasing sample items with cash obtained from Automated Teller Machines
       (ATM). Other employees made ATM cash withdrawals that exceeded the amount
       authorized (no employee is authorized to make a cash withdrawal exceeding the
       total per diem amount to which they were entitled for the trip as a whole). These
       inappropriate uses totaled $7,993.20. Furthermore, the CPSC has not properly
       designed internal controls to monitor improper and erroneous transactions; nor
       has the CPSC developed written guidance to address improper card usage.
       Inappropriate use of the travel card violates the terms of the contract with the
       travel card provider, represents abuse of government-provided resources, and
       compromises the integrity of the CPSC.

   2. Improvements Needed to Meet the Requirements of OMB Circular A-123,
      Management’s Responsibility for Internal Control, Appendix B, Improving the
      Management of Government Charge Card Programs:

                                                                                        3
       The CPSC does not comply with various requirements mandated by OMB
       Circular A-123, Appendix B. The OIG noted the following areas of
       noncompliance:
           a) The Division of Financial Services (FMFS) has not established proper
               training for the approving, authorizing, and certifying officials; nor has
               FMFS established a refresher course.
           b) FMFS did not adhere to the guidelines for travel card recovery procedures
               set out in OMB Circular A-123, Appendix B.
           c) The CPSC has not properly assessed performance metrics associated with
               the Travel Card Program. As a result, CPSC reported inaccurate data for
               FY 2011 to OMB.
           d) The CPSC has not properly assessed the risks associated with the Travel
               Card Program, as required by OMB; nor has the CPSC implemented risk
               management controls, policies, and practices required by the OMB.

   3. Improvements Needed Over Travel Expenditures Oversight:

We found that the Travel Card Program lacks adequate oversight to prevent fraud and
other forms of waste and abuse. The OIG found problems with the design,
implementation, and/or operational effectiveness of the internal controls tested. We
identified internal control weaknesses in multiple areas of the Travel Card Program,
including the following:

           a) FMFS does not adequately update the directive(s) associated with the
              Travel Card Program. We found these directive(s) to be inconsistent with
              the current versions of the FTR and OMB Circular A-123, Appendix B;
           b) FMFS has not established oversight controls that properly monitor CBA
              activity. Specifically, FMFS did not ensure proper and effective use of
              the CBA account, monitor CBA account activity, and ensure proper
              supporting documentation of CBA charges and reconciliations. As a
              result, we found two transactions that were improperly charged and paid
              on the CPSC’s behalf.
           c) In addition, the CPSC does not have adequate oversight controls over
              travel transactions. The Accounting Service Provider (ASP) could not
              locate the proper documentation to support travel transactions totaling
              $11,324.22. We also identified $665.96 in improper travel voucher
              reimbursements.


                          MANAGEMENT’S RESPONSE

Overall, management concurred with all of our findings and recommendations. In
addition, we find it appropriate to note that in their response to the findings and
recommendations, management discusses the timeliness of this audit. Management
asserts that the CPSC Travel Program has been significantly “revamped” to include how
CPSC employees use the government travel charge card. On the contrary, while as is

                                                                                        4
true of all audits, the audit scope covers a period in the past. The OIG believes that the
findings from the audit are still valid. We identified similar issues with travel charge card
transactions in the recent FY 2012 CPSC Financial Statement Audit. Furthermore, while
management asserts that “enhanced” internal controls are now in place to remediate the
findings in the report, the OIG has not performed any procedures over these new internal
controls. Therefore, we are unable to comment on their effectiveness. Ultimately, the
most important single internal control over the travel card program is the CPSC directive
governing it. This document would not only memorialize the corrective actions taken,
but also formalize the changes made in the program to remediate the findings identified
in this report. However, to date, CPSC has not issued an updated CPSC Travel directive.




                                                                                           5
                                   INTRODUCTION

BACKGROUND


The Travel and Transportation Reform Act of 1998, Public Law 105-264, requires federal
employees to use travel charge cards for all payments of expenses related to official
government travel, including hotels, transportation costs, and meals. By consolidating
travel expenditures with a single card vendor, and by streamlining the process for
advancing travel funds to federal employees, agencies reduce administrative costs
associated with processing federal travel. The General Services Administration (GSA)
awards and administers a master contract for the government travel card program, which
is part of the GSA SmartPay Program.

The GSA issues the Federal Travel Regulation (FTR) that implements legal requirements
and Executive Branch policies for travel by federal civilian employees and others
authorized to travel at government expense. The FTR’s intent is to interpret legal and
other policy requirements in a manner that balances on the one hand, the need to
guarantee responsible official government travel, against the need to lessen
administrative costs, on the other hand.

The Office of Financial Management, Planning, & Evaluation (EXFM) is responsible for
the CPSC’s financial policy and financial management, including the management of the
travel charge card program, which is administered by the FMFS. FMFS assists in the
administration of Travel Card Program by issuing travel-related policies and procedures
to address items ranging from authorizations to travel, to reimbursement of government
travel expenditures. For FY 2011, FMFS had one employee acting as the
Agency/Organization Program Coordinator (A/OPC). The A/OPC is responsible for
opening and closing travel accounts, maintaining and updating employee account
information, and monitoring travel card training.

Under the Travel Card Program, the CPSC uses two types of travel charge cards: (1)
Individually Billed Accounts (IBA) that individual cardholders hold and pay for through
reimbursement; and (2) Centrally Billed Accounts (CBA) that FMFS holds and pays for
common carrier cost only.


OBJECTIVES

The purpose of our audit was to determine whether the related internal controls, policies,
and procedures established to monitor and manage the Travel Card Program were
functioning in a reasonable manner. Specifically, the objectives of our audit were to
determine:

   1. the adequacy of management internal controls over the travel charge card
      program; and

                                                                                          6
   2. whether the CPSC’s Travel Card Program was being effectively managed, using
      guidance and best practices provided in OMB Circular A-123, Appendix B,
      Improving the Management of Government Charge Card Programs.

SCOPE

This audit covers travel card transaction activity during FY 2011 and the 1st quarter of FY
2012 (October 2010 to December 2011), as administered by EXFM’s FMFS at the CPSC
headquarters in Bethesda, MD. During the audit scope, the CPSC had approximately 210
cardholders and $804,494.43 in charges to the IBA and the CBA. All travel cardholders
at CPSC headquarters and field locations throughout the United States were included in
the scope of the audit. Audit fieldwork took place from February 2012 through March
2013.

METHODOLOGY

We conducted this audit in accordance with Generally Accepted Government Auditing
Standards (GAGAS). Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions, based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

To accomplish our audit objectives, we obtained an understanding of the CPSC Travel
Card Program to include the design, implementation, and operating effectiveness of
internal controls, compliance with the CPSC governing policies and procedures, and
compliance with applicable federal laws, regulations, and provisions. To obtain this
understanding, we conducted interviews with key EXFM personnel, performed
walkthroughs of the CPSC travel card internal controls and execution of policies and
procedures, inspected relevant supporting documentation, and examined travel card data
and reports from the contracted vendor, U.S. Bank, for both the IBA and the CBA.

Based on the information gathered, we identified specific risks and opportunities for
fraudulent, improper, or abusive purchases within the CPSC’s program. Thereafter, we
determined what key control activities were in place to prevent or detect such
occurrences. Additionally, we performed a preliminary assessment of whether the
controls were likely to be effective, and we identified any control design inefficiencies
based on the control process. As a result of the preliminary assessment, we designed the
audit procedures (test of controls) to assess the internal controls’ operating effectiveness,
to review specific attributes of the program, and to determine compliance with the
identified laws, regulations, and provisions governing the program.

To perform our audit procedures at the transactional level, we obtained a population of
travel card transactions from the U.S. Bank System. To assess the reliability of U.S.
Bank’s transactional data we: (1) reviewed related documentation, including an

                                                                                             7
Independent Service Auditors Report on the effectiveness of U.S. Bank’s internal
controls; (2) interviewed agency officials knowledgeable about the data; and (3) verified
the completeness of the population, by comparing charges listed to travel vouchers,
receipts, other source documents and supporting records. Based on this assessment, we
determined that the data were sufficiently reliable for purposes of the report.

The U.S. Bank monthly transaction cycle close is mid-month; thus, we selected our
sampled items from the period of September 17, 2010 through December 16, 2011. As
such, this period included a universe of 4,950 transactions totaling $804,494.43. The
population also included ATM withdrawals. Due to the inherent risk of ATM cash
withdrawals, we deemed it appropriate to extract and test the ATM withdrawals as a
separate sample. The transactions we extracted totaled 145 items totaling $20,798.27.

To determine the internal control effectiveness, we obtained a random sample of 45
transactions from the universe. Based on the results of the internal control sample, we
used Monetary Unit Sampling to perform tests of transactional completeness and
accuracy. This approach resulted in a statistical sample of 87 transactions and an
additional three transactions in high dollar amounts (totaling $35,513.80) for IBAs &
CBAs from the universe of 4,950 transactions. As previously noted, we deemed ATM
withdrawal transactions to present a higher risk. Therefore, we extracted an additional
statistical sample of 66 ATM withdrawals with an additional 12 transactions designated
as high-dollar transactions. We drew these transactions from a universe of 145
transactions.

We based all statistical samples on a 95 percent confidence level (reliability) and had an
expected error rate of 5 percent.




                                                                                             8
                                  RESULTS AND FINDINGS	

1. IBAs Were Not Always Used Appropriately

CPSC employees did not always use IBA travel card accounts appropriately. Following
are examples of inappropriate use: the IBA was used for purchases that did not relate to
official government travel; or IBA travel card accounts were used for ATM withdrawals
that were in excess of either the Meals and Incidental Expense (M&IE) Allowance1
and/or not used for official travel expenses.

During the relevant period, there were 2,467 IBA transactions totaling $279,198.15 and
145 ATM withdrawals totaling $20,798.27. Through a sampled review of IBA
transactions and associated ATM withdrawals, we identified:

       Eleven individuals (more than 20 instances), who made ATM withdrawals during
        official travel that exceeded the total M&IE allowed for the trip. Overall, these
        individuals withdrew a total of $6,180.21, while the related maximum M&IE for
        these trips was $2,872.00. In one case, an employee made excessive ATM
        withdrawals totaling $1,949.47, while on official travel in Las Vegas, NV.

       Additionally, we identified 32 inappropriate purchases totaling $6,485.55. These
        transactions resulted from charges and ATM withdrawals that field investigators
        made for sample purchases,2 lack of supporting documentation, a restaurant
        charge within an employee’s local area of employment, and a government vehicle
        license plate renewal fee.


OMB Circular A-123, Appendix B defines the “travel charge card” as “an individually or
centrally billed, government contractor-issued charge card used by authorized individuals
for travel-and transportation-related expenses in compliance with the applicable
regulations and in support of official government business.”

In addition, the Cardholder Agreement with US Bank, which the travel card applicant
must sign, states that the applicant understands that the card is to be used for official
travel-related expenses. The travel charge card on its face, contains the statement: “For
Official Government Travel Only.” Inappropriate use of the travel card violates the terms
of the contract with the travel card provider. We noted, during the audit, the Office of the


1
  Meals and Incidental Expense (M&IE) Allowance is the allowable reimbursement the federal government
gives to employees who travels on business. The M&IE is a predetermined rate based on the employees
travel destination.
2
  An undercover investigator may have a need to purchase consumer products on behalf of the CPSC. For
the purchase to remain covert, the investigator uses cash, versus the government purchase card embedded
with the GSA logo.

                                                                                                      9
Executive Director issued a memorandum to cease obtaining cash advances from the
government travel card for sample purchases.

Ultimately, these issues occurred due to the lack of effective oversight by FMFS. FMFS
relies on supervisors to review their respective employees’ travel transactions and report
to FMFS any improper or erroneous items. But FMFS has not provided proper training
to supervisors on how to review travel authorizations against charge card bank
statements, developed written procedures to address improper transactions, nor provided
supervisors with guidance on “next steps to take” if they encounter an employee who has
used their travel card for improper purchases.

We recommend that FMFS:

   1. develop and implement procedures to instruct supervisors on how to monitor and
      detect improper and erroneous travel card usage.

   2. review and update CPSC Directive 1300.1, CPSC Travel Policy and Procedures,
      to provide for coordination with EXRM and to educate travel cardholders and
      their supervisors of the penalties associated with erroneous and improper
      transactions.

   3. update CPSC Directive 1300.1, Appendix 5, Use of Automated Teller Machines
      (ATM) for Cash Advances, to ensure that it reflects changes in the Government
      Travel Card Programs and adheres to the intent of the government Travel Card
      Program, as defined by OMB Circular A-123, Appendix B.

   4. strengthen its adherence to CPSC Directive 1300.1, Appendix 5, by developing
      standard operating procedures to conduct periodic reviews over ATM cash
      withdrawals for reasonableness and association with official travel; and to contact
      employees to inquire about questionable or suspicious transactions.


2. Improvements Needed for Compliance with the Requirements of OMB Circular A-
   123, Appendix B

The CPSC has not fully satisfied the following requirements made mandatory by OMB
Circular A-123, Appendix B:

a) Travel Card Training – FMFS has not established a system of training in compliance
   with Chapter 3 of OMB Circular A-123, Appendix B. OMB Circular A-123, Chapter
   3, requires training on the use of the federal travel charge card as follows:

      All program participants must be trained prior to appointment;

      All program participants must take refresher training a minimum of every three
       years;

                                                                                        10
      All program participants must certify that they have received the training,
       understand the regulations and procedures, and know the consequences of
       inappropriate actions; and

      Copies of all training certificates must be maintained pursuant to U.S. National
       Archives and Records Administration (NARA) requirements.

FMFS uses the SmatPay2 online travel training course administered by the U.S. General
Services Administration. Although this satisfies the training requirements for the travel
charge card holders who take the training, FMFS does not properly require all program
participants to complete training. OMB Circular A-123, Appendix B, Chapter 3.3 states,
“all program participants, including card holders and charge card managers (including
Agency/Organization Program Coordinator (A/OPC), Approving officials, and other
accountable/billing officials), must be trained in charge card management.”

Our review of the training completed during the audit scope period determined that only
new travel cardholders completed the online training course. Furthermore, FMFS has not
properly structured the required mandatory refresher training course. OMB Circular A-
123, Appendix B 3.4 states: “all program participants must be trained prior to
appointment, and all program participants must take refresher training, at a minimum,
every three years.”

The A/OPC, prior to appointment, is required to receive training on the role and
responsibilities of the A/OPC, including proper management, control, and oversight tools
and techniques (see FTR Part 301-70, and FTR 301-70.700 through 708). The A/OPC
must also receive the same training as the cardholders. We observed that FMFS has not
allocated sufficient time and resources to develop the training card program. This could
lead to improper travel card usage, which could lead to fraud, waste, and abuse within the
Travel Card Program. Because FMFS is not monitoring the charge card program
effectively to ensure compliance with the training requirements mandated by OMB
Circular A-123, Appendix B, the travel charge card program may be susceptible to the
risk of improper, abusive, and fraudulent travel charges.

We recommend:

   5. FMFS conduct training for all CPSCs approving, accountable, and billing officials
      associated with the Travel Card Program. In addition, FMFS should track and
      retain documentation of the training completed by all participants.

   6. The A/OPC should complete the required GSA SmartPay Travel training, at a
      minimum, once every three years, but should also attend the annual GSA
      SmartPay Training Conference.

b) Review of IBA Accounts – FMFS did not always cancel IBAs when employees
   separated from the CPSC, collect travel cards from separated employees, or review

                                                                                          11
   accounts for infrequent use.

   Per CPSC Directive 1300.1, CPSC Travel Policy and Procedures, Section 5(h)(2) (b),
   “to qualify for a travel charge card, an employee must provide a statement from
   his/her supervisor they will travel at least twice a year.” During the audit period, the
   CPSC had 210 open travel card accounts. We reviewed a listing of separated
   employees provided by the Office of Human Resources (EXRM) against the list of
   open travel cards provided by FMFS and identified the following:

      An employee separated from the agency on 4/2/2011, but at the time of our
       review, the employee’s travel card was still active. CPSC closed the account
       prior to the completion of the audit. We also discovered there were seven other
       accounts that CPSC closed after the employee’s separation date. However, we
       found no evidence that any travel card transactions occurred on the cards in
       question after the employee’s termination date.

      Seven instances in which CPSC issued travel cards to individuals but the cards
       were not used during the scope of the audit; of those instances, three cards were
       beyond 180 days of inactivity.

      There were 104 instances in which a CPSC employee used a travel card at least
       once , but the travel cards had not been used for more than 180 days; in one
       instances, the card had not been used in the past 1,045 days.

We also found that FMFS’s travel recovery procedures did not comply with OMB
Circular A-123 Appendix B. OMB Circular A-123, Appendix B, Section 2.3, provides
agencies guidance on the “required elements” of an agency’s charge card management
plan. OMB Circular A-123 requires the agency to recover travel cards from all
employees who terminate their employment with the agency. FMFS does not recover
travel cards from all employees who terminate their employment with the agency.
Although there is a process in place to accomplish this, CPSC does not follow the process
consistently. During our discussion with FMFS regarding the process used to recover
travel cards when employees separate or are terminated from the agency, FMFS indicated
that some employees bring the card to FMFS upon separating from the CPSC, but at
other times, the cardholder disposes of the card on their own and gives notice of this fact
to FMFS. By not deactivating and canceling travel charge cards properly, the CPSC
exposes itself to unnecessary risk of inappropriate charges.

We recommend:

   7. FMFS reiterate to management that travel cards should be issued only to
      employees with a bona fide need.

   8. FMFS update the travel charge card management plan to reflect that upon closing
      an employee’s account or when an employee is separating from the agency, the
      CPSC must recover the card. CPSC should develop a process for Headquarters

                                                                                           12
       and the Field Division to recover travel cards. CPSC should document this
       process formally and apply the process consistently.

   9. FMFS perform a review at each year-end, to compare the listing of separated
      employees prepared by EXRM to the travel card “account status changed” data
      from US Bank to ensure that none of the employees that have separated from the
      CPSC still has an active travel card account. FMFS should also consider
      deactivating the accounts or lowering the spending limits of individuals who are
      not using their travel cards at least twice per year.

c) Performance Metrics Data Requirement – FMFS has neither allocated sufficient time
   and resources, nor established procedures to report Travel Card Program statistics
   properly to OMB. OMB A-123, Appendix B, Chapter 5 requires each agency to
   report timely and accurate data to assess:

      compliance with legislative and administrative requirements;

      the effectiveness of efforts to mitigate risks of fraud, waste, and abuse; and

      performance trends in managing costs and other relevant indicators of program
       success.

We reviewed the statistical report FMFS submitted to OMB for the period ending
9/30/2011. Although submitted timely, the report did not contain accurate data. During
our review, we noted the following reporting errors:

      FMFS reported the agency having 213 active travel cards. We reviewed the card
       status report as of 9/30/2011, and determined that there were 202 active cards and
       11 cards that required activation.

      FMFS reported that the agency did not have any instances of card misuse/abuse
       and that CPSC took no disciplinary action during the reporting period. However,
       we confirmed with EXRM that the agency had one instance of card misuse/abuse
       and that CPSC took disciplinary action during the reporting period.

      We reviewed the travel card accounts that were authorized to make ATM
       withdrawals and determined that there was one travel card that had a credit limit
       of $5,000 and 100% withdrawal capabilities. FMFS reported all travel cards had
       a withdrawal limit of $0 - $3,000

      FMFS overstated the percentage of infrequent users at the agency, by reporting
       that 119 employees traveled one time or less during the reporting period. After
       comparing the transaction report with the inactive card report, we determined that
       98 employees used their travel card infrequently during the reporting period.



                                                                                        13
Because FMFS management had not implemented the necessary policies, procedures, and
techniques to ensure compliance with OMB Circular A-123, Appendix B, the efficiency
and integrity of the charge card program may be impaired, and there is increased risk of
fraud, misuse, and delinquency by charge cardholders.

We recommend:

   10. FMFS develop written procedures to perform a statistical review in accordance
       with OMB Circular A-123, Appendix B. A supervisor should review the
       statistical review before transmittal to OMB. The Program Coordinator and the
       supervisor should sign the review to document its completion and obtain
       supervisory review prior to its transmission to OMB.

d) Risk Management Requirements – FMFS has neither allocated sufficient time and
   resources, nor established the procedures required by OMB to mitigate risks
   associated with the Travel Card Program. OMB Circular A-123, Appendix B
   requires agencies to implement risk management controls, policies, and practices to
   ensure the efficiency and integrity of the Travel Card Program. The risk management
   controls, policies, and practices are designed to eliminate payment delinquencies,
   card misuse, fraud, and other forms of waste and abuse. Because the CPSC has not
   implemented the necessary policies, procedures, and practices to ensure compliance
   with OMB Circular A-123, Appendix B, the efficiency and integrity of the charge
   card program may be impaired. The OMB has charged agencies to implement:

      general risk management controls, policies, and practices;
      risk management controls, policies, and practices addressing payment
       delinquencies; and
      risk management controls, policies, and practices addressing charge card misuse.

Specifically, the CPSC needs to implement the following additional areas of risk
management policies, and practices to ensure the efficiency and integrity of the Travel
Card Program:

      the appropriate controls to ensure compliance with federal laws, federal and
       agency regulations, and to monitor program effectiveness;
      review available data (including the use of data mining, if available) to detect
       instances of delinquency, fraud, and misuse and identify trends and outliers in
       relevant indicators of charge card program performance;
      maintain a policy that ensures that administrative and/or disciplinary actions are
       initiated in the event cardholders or other program participants fail to meet their
       responsibilities with respect to appropriate use and timely payment of the charge
       card;
      communicate the agency’s policy with respect to administrative and/or
       disciplinary actions to cardholders, and other program participants, including
       when referral to an agency OIG is appropriate and/or required;


                                                                                          14
      incorporate all controls, practices, and procedures related to centrally billed
       account delinquencies in the agency’s charge card management plan, consistent
       with section 2.3 of OMB Circular A-123, Appendix B;
      implement split disbursement and salary offset procedures for travel charge card
       programs (or request a waiver from the Director of the OMB in writing);
      identify specific risks associated with the charge card program, and implement
       strict internal controls to mitigate these risks to the greatest extent; and
      develop policies and procedures to mitigate risks associated with the charge card
       program.

We recommend:

   11. FMFS review the risk management requirements stipulated by the OMB Circular
       A-123, Appendix B, Chapter 4, and implement controls, policies, and procedures
       to ensure efficiency and integrity of the Travel Card Program, by mitigating the
       risks of fraud, misuse, and travel card delinquency.

3. Improvements Needed Over Travel Expenditure Oversight

a) Out-of-Date Travel Directives – FMFS does not have written standard operating
   procedures over the Travel Card Program but has relied on directives as formalized
   policies to govern the Travel Card Program. CPSC Directive 1300.1, CPSC Travel
   Policy and Procedures, and its appendices one through four, have not been updated
   since July 1996, and refer to an “ADFS” department and positions that are no longer
   relevant to CPSC due to agency reorganizations over the last several years. FMFS
   has not updated its policies regarding the travel card to ensure compliance and
   consistency with federally mandated regulations and provisions. This could lead to
   possible travel card misuse, which could leave the Travel Card Program susceptible
   to fraud, waste, and abuse. We identified the following irregularities in CPSC
   Directive 1300.1 that relate to the Travel Card Program:

          CPSC Directive 1300.1, Appendix 7, Section 3 states, “all travel requirements
           shall continue to be observed fully, and all official travel must be authorized
           on CPSC form 243.” Federal Travel Regulation (FTR) 301-50.3 states, “You
           must use the E-Gov Travel Services (ETS) when your agency makes it
           available to you.” CPSC began using the E2 Solutions as the official ETS on
           October 1, 2009, and has since converted to GovTrip in October 1, 2010. The
           directive has not been updated to reflect the use of ETS.

          CPSC Directive 1300.1, Appendix 5, 1b, allows employees to use the
           government travel card to obtain ATM cash advances for the sole purpose of
           purchasing sample items. This contradicts the Federal Travel Regulation 301-
           70.706, which states, “An employee is required to use the government
           contractor-issued travel charge card for expenses directly related to official
           travel.”


                                                                                        15
          CPSC Directive 1300.1, Appendix 1, advises employees on the authorized
           mileage allowances. We noted that the allowances in the current directives
           are not current and date back to July 1996.


We recommend:

   12. FMFS management review and revise each CPSC directive associated with the
       Travel Card Program to include current practices being performed, regulations
       established by the OMB, and regulatory requirements established by the FTR.
       We also recommend the review and update of travel directives periodically, or as
       needed.

b) Oversight of Centrally Billed Account – Overall, we found that FMFS’s oversight of
   the CBA activity has not always been effective. FMFS relies on an Accounting
   Service Provider (ASP) to make monthly payment to the CBA for charges incurred,
   but the ASP does not review the CBA for any potential erroneous transactional
   activity. The lack of oversight performed by FMFS can lead to improper travel
   usage, which could lead to fraud, waste, and abuse.

   The CBA is a separate US Bank charge account used by CPSC to accumulate
   purchased common carrier transportation services (e.g., airlines, train, buses, etc.) and
   the related travel agent booking fees for CPSC travelers. During the audit period, the
   CPSC incurred $504,498.01 in charges to its CBA.

   GovTrip is the web based travel system that allows employees to create travel orders
   and expense reports (during the audit period, CPSC also utilized manual authorization
   and voucher forms, which allowed employees to contact SATO directly and make
   travel reservations). When travel arrangements occur, the charges incurred post
   automatically against the CBA. Monthly, FMFS forwards the CBA bill to their ASP
   for payment. The ASP performs a review of the bill, but only to make sure
   transactions are aligned with the correct organization code. Because employees have
   the authority to make travel arrangements directly with SATO, without authorization
   – per se, and FMFS/ASP does not review the bill for erroneous charges, the chances
   are high that fraudulent or erroneous transactions can and do occur.

   During a review of CBA transactions, specifically, we found:

      GovTrip voucher 0R47Z8: This authorization was canceled, but the flight charge
       of $370.90 was charged against the CBA. Neither FMFS nor the ASP was able to
       provide evidence that the CPSC received a refund for the canceled trip.

      Voucher 12-C24300001: While on official travel in Mumbai, India the employee
       took personal leave and made flight reservations to Paris, France without an
       authorization. The flight was charged to the CBA.


                                                                                         16
We recommend:

   13. FMFS perform a monthly review of all CBA charges submitted by the financial
       service provider. The procedures developed to govern this review should include
       that FMFS: (1) review the CBA reconciliation performed; (2) align transactions
       charged to the CBA to approved obligations; and (3) maintain all supporting
       documentation of the review and follow-up of all transactions. The procedures
       developed should include a requirement that the A/POC conducting the review
       and the individual performing the supervisorial review both document their
       actions by signing off on their work product.


c) Travel Payment Deficiencies – FMFS’ oversight of IBA travel expenditures needs
   improvement. During the audit, we identified instances where oversight activities
   designed to ensure that agency funds were used in an allowable, effective, and
   economical manner, did not always function as intended. We found that CPSC
   officials did not always ensure that costs claimed on individual travel vouchers were
   accurate, allowable, and actually incurred by the traveler. This included validating
   that claimed expenses were supported by proper documentation, miscellaneous
   expenses were appropriately explained and documented, and calculations were
   correct.

   The conditions noted occurred because of lack of oversight and unfamiliarity with
   Federal compliance by the applicable approving officials and travelers. Ineffective
   oversight of travel expenditures can result in inappropriate use of agency resources
   and violations of agency policies and procedures. As a result, employees may be
   reimbursed for charges that they did not actually incur, that were unallowable, or
   reimbursed for more than that to which they are actually entitled. Without proper
   monitoring of travel expenditures, a precedent may be set that inappropriate charges
   are tolerated by the agency.

   Specifically, we found:

      Four instances where the formal authorization to travel did not occur through the
       appropriate authoritative channels prior to travel. FTR-2.1 states, “that generally
       you must have written or electronic authorization prior to incurring any travel
       expense.”

      Eleven instances where neither FMFS nor the ASP could locate the proper
       documentation to support travel transactions totaling $11,324.22. Per FTR 301-
       52.4, travelers “must provide receipts for any lodging expense; and any other
       expense costing over $75.”

      Twenty-seven instances where the employee failed to submit their travel vouchers
       within five working days, as required by the FTR. FTR 301-52.7 states “unless
       your agency administratively requires you to submit your travel claim within a

                                                                                        17
    shorter timeframe, you must submit your travel claim as follows: (a) within 5
    working days after you complete your trip or period of travel; or (b) every 30 days
    if you are on continuous travel status.”

   Four instances where the traveler claimed and was paid for improper
    hotel/lodging fees:

       o GovTrip voucher 0R3SVI: The employee claimed the full lodging
         allowance of $206, but the hotel receipt only validates hotel charges of
         $109.87, resulting in an overpayment of $96.13.

       o GovTrip voucher 0RD39K: The employee claimed total hotel
         reimbursement of $197.47, but the receipt only validates a payment of
         $106.47, resulting in an overpayment of $91.00.

       o GovTrip voucher 0RI2GT: The employee claimed the maximum
         authorized hotel MI&E of $85 per day for two days, but hotel receipts
         only validate hotel charges of $70 per day, resulting in an overpayment of
         $30.00.

       o GovTrip voucher 0RVR4F: The employee’s itinerary was dated
         9/13/2011 through 9/17/2011, but the employee was reimbursed for
         lodging and per diem for 9/12/2011, an overpayment of $146.00.

   In addition, we identified two instances where the traveler did not provide
    accurate receipts to substantiate claims:

        o GovTrip Voucher 0R3SVI: The employee could not provide a receipt to
          substantiate an alleged ticket cost of $159.40. Since a receipt could not be
          provided, the transaction is unsupported and found to be invalid. The
          voucher was overpaid $159.40.

        o Voucher 11-2431608: The employee submitted two vouchers for this
          authorization. The second voucher was filed to request reimbursement for
          charges the employee failed to claim at the time of the first submission.
          There was a transaction for “copies and printing” on 10/21/2010 for
          $62.56 that was claimed on both vouchers. There was also a charge of
          $80.87 claimed, which did not have receipt support; thus, resulting in an
          overpayment of $143.43.

    We recommend:


14. FMFS division strengthens controls over payment authorizations, to ensure
    properly approved payments are validated. FMFS should ensure travel costs are
    reimbursed in accordance with the FTR, including the use of per diem rates for

                                                                                    18
       meal expenses. To accomplish this, we recommend that after the initial review by
       the traveler’s first level superior is performed, a second level review is performed
       on both the travel authorizations and vouchers to ensure all internal control
       reviews have been performed prior to the processing of the obligation and
       payment.

   15. FMFS follows-up on each condition item that mentions either an overpayment of
       per diem or reimbursements due to the Commission, and recoups the unallowable
       reimbursement paid.

   16. Lastly, we also recommend that FMFS develop training tools and require
       refresher training to supervisors, authorizing and approving officials that identify
       their responsibilities and requirements for issuing travel authorizations and
       approving travel claims for transportation, subsistence and miscellaneous expense
       allowance in accordance with the FTR and other applicable regulations.



                                    CONCLUSION

Based on the results and findings noted above, the CPSC has not complied with its or the
general federal government Travel Card Program regulations, policies, and procedures.
Moreover, the CPSC’s Travel Card Program has significant internal control weaknesses.
We have discussed our recommendations with management. Management plans to take
the proper action to remediate the issues noted and will implement policies and
procedures to strengthen the program through the development of a Corrective Action
Plan (CAP).

   .




                                                                                        19
APPENDIX A: MANAGEMENT RESPONSE	




                                   20
